STATE OFALABAMA

OFFICE oF THE ATToRNEY GENERAL
5OI YYASHINGTONA\/ENUE
P.O. BOXS(X)t52

STEVENT. MARSHALL
ATTORNEYGENERAL

36I3(X)I52
(334242r73oo

MONTGOMERY, AL

December 18,

2O2O

Honorable Scott Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543

Re: Barksdale u. Dunn
Case No. 20-6498

Dear Mr. Harris:

I am writing to request an extension of time to file the State of
Alabama's brief in opposition in the above-styled case. The State's
brief in opposition is due in this Court on January 4,2021. The
State of Alabama requests an additional 30 days. The State's brief
in opposition would then be due on February 3, 2O2I.

Thank you for your assistance in this matter.
Sincerely,

s/ Beth Ja'ckson Hughes
Beth Jackson Hughes
Assistan t Attorney General

cc: Steven Marc Schneebaum
sms@smslawdc. com

